NOVEMBER 13, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




                NASA’S MANAGEMENT OF
            THE COMMERCIAL CREW PROGRAM




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-14-001 (ASSIGNMENT NO. A-12-024-01)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ASAP         Aerospace Safety Advisory Panel
CCDev1       Commercial Crew Development Round 1
CCDev2       Commercial Crew Development Round 2
CCiCap       Commercial Crew Integrated Capability
CCtCap       Commercial Crew Transportation Capability
CPC          Certification Products Contact
FAA          Federal Aviation Administration
FAR          Federal Acquisition Regulation
FY           Fiscal Year
GAO          Government Accountability Office
ISS          International Space Station
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
OMB          Office of Management and Budget


                                                         REPORT NO. IG-14-001
NOVEMBER 13, 2013




                                                                                            OVERVIEW

                                NASA’S MANAGEMENT OF
                            THE COMMERCIAL CREW PROGRAM
                                                                                              The Issue

   Since the retirement of the Space Shuttle Program in July 2011, the United States has
   lacked a domestic capability to transport crew and – until recently – cargo to and from the
   International Space Station (ISS or Station). Consequently, NASA has been relying on
   the Russian Federal Space Agency (Roscosmos) for crew transportation. Between 2012
   and 2017, NASA will pay Roscosmos $1.7 billion to ferry 30 NASA astronauts and
   international partners to and from the ISS at prices ranging from $47 million to more than
   $70 million each. After 2017, NASA hopes to obtain transportation to the ISS from
   American companies.

   In anticipation of the Shuttle’s retirement, Congress and the President directed NASA to
   foster the commercial spaceflight industry as a means of developing domestic cargo and
   crew transportation capabilities to the Station. In November 2005, NASA created the
   Commercial Crew and Cargo Program Office and in 2011, activated a separate
   Commercial Crew Program Office to reflect the increased funding and priority for
   commercial crew. As of August 31, 2013, NASA has spent $1.1 billion on its
   commercial crew development efforts. NASA is currently working with three
   companies – The Boeing Company (Boeing), Space Exploration Technologies
   Corporation (SpaceX), and Sierra Nevada Corporation (Sierra Nevada) – using a
   combination of funded Space Act Agreements and contracts based on the Federal
   Acquisition Regulation (FAR) to develop commercial crew transportation capabilities.1

   In June 2013, the Office of Inspector General (OIG) issued a report examining NASA’s
   efforts to foster a commercial market for cargo resupply missions to the ISS.2 In the
   report, we discussed NASA’s funding over the past 7 years of SpaceX and Orbital to
   further development of spaceflight capabilities and, on a separate track, the Agency’s
   contracts with the companies for a combined 20 cargo resupply missions to the ISS. As a
   complement to that report, this review examines NASA’s efforts to pursue commercial
   crew capabilities.

   1
       Space Act Agreements are a form of “Other Transaction Authority” provided to NASA in the National
       Aeronautics and Space Administration Act of 1958 that establish a set of legally enforceable
       commitments between NASA and a partner to accomplish a stated objective without imposing the
       extensive list of requirements routinely found in most government contracts.
   2
       NASA OIG, “Commercial Cargo: NASA’s Management of Commercial Orbital Transportation Services
       and ISS Commercial Resupply Contracts” (IG-13-016, June 13, 2013). In March 2013, SpaceX
       successfully completed its second Station resupply mission, while Orbital Sciences Corporation (Orbital)
       is scheduled to undertake its first resupply mission in December 2013.



REPORT NO. IG-14-001
                                                                                                         OVERVIEW



     NASA’s Commercial Crew Program is currently at a critical stage of development, as
     Boeing, SpaceX, and Sierra Nevada are expected to complete their spacecraft designs
     within the next year. While the partners are responsible for developing the vehicles, they
     rely heavily on NASA funding to meet current schedule requirements. At the same time,
     NASA maintains responsibility for ensuring that the partners’ launch systems and
     spacecraft meet Agency safety and operational requirements. All three partners achieved
     what amounts to a Preliminary Design Review prior to NASA’s award of the latest round
     of Space Act Agreements in 2012 and have set an optimistic schedule for achieving what
     each company defines as a Critical Design Review of their systems by mid-2014.3

     After completion of the initial two rounds of development using Space Act Agreements,
     NASA originally planned a two-phased, FAR-based acquisition approach to develop
     commercial crew capabilities. Phase 1 was to consist of firm-fixed-price contracts to
     multiple companies for integrated design and early development followed by a second
     round of firm-fixed-price contracts for additional development, testing, evaluation, and
     certification of the contractors’ crew transportation systems. Thereafter, NASA planned
     to enter into individual FAR-based contracts for each crewed mission with the hope of
     beginning flights to the ISS in 2016.

     For fiscal year (FY) 2012, NASA received $397 million for its Commercial Crew
     Program; less than half its $850 million request. In light of this development, in August
     2012, NASA revised its Commercial Crew Acquisition Strategy to rely on Space Act
     Agreements rather than FAR-based contracts for the integrated design phase of the
     program. The Agency also delayed the expected completion date of the commercial crew
     development phase from 2016 to 2017.

     Using funded Space Act Agreements rather than FAR-based contracts to develop new
     transportation capabilities has several potential benefits. First, because the partners share
     development costs and the agreements involve fewer regulations and require less
     oversight by NASA, they may reduce the Agency’s cost of acquiring these capabilities.
     Second, because NASA does not impose specific requirements on the companies as part
     of the agreements, the commercial partners are free to develop spacecraft designs that
     will support the needs of both NASA and other potential customers. Third, NASA
     officials said they believe the greater flexibility offered by Space Act Agreements
     promotes creativity and innovation.




     3
         As defined by NASA, the Preliminary Design Review demonstrates that the overall preliminary design
         meets all requirements with acceptable risk and shows that the correct design options have been selected,
         interfaces have been identified, and verification methods have been described. The Critical Design
         Review determines if the integrated design is appropriately mature to continue to final design and
         fabrication. Both reviews are important to demonstrate that a system meets all requirements with
         acceptable risk and within cost and schedule constraints. For the Commercial Crew Program, the
         companies defined their own requirements for achieving both Preliminary and Critical Design Reviews,
         with review and concurrence by NASA. NASA funded Boeing and SpaceX to achieve Critical Design
         Review, but due to a limited budget has not funded Sierra Nevada’s completion of that milestone.



ii                                                                                         REPORT NO. IG-14-001
OVERVIEW



  However, NASA’s use of Space Act Agreements also poses risks, most prominently
  limiting its ability to dictate specific design and safety requirements during the
  development process. In addition, oversight of partners in a Space Act Agreement
  relationship is more challenging. Taken together, these constraints make it harder to
  ensure that the companies will ultimately produce spaceflight systems that meet Agency
  requirements and that NASA can be confident will safely carry its astronauts to and from
  the ISS.

  Given the significance of the Commercial Crew Program to NASA’s human spaceflight
  efforts, we assessed: (1) the progress of each of the commercial partners toward
  developing a certified crew capability and (2) the major challenges that must be
  addressed to successfully implement the Program. Details of the audit’s scope and
  methodology are in Appendix A.

                                                                                Results

  Although NASA’s commercial partners are making steady progress in their initial
  development, the Commercial Crew Program faces several obstacles that may hinder
  NASA’s ability to transport astronauts to the ISS in commercially supplied vehicles by
  2017. These include an unstable funding stream, challenges in aligning cost estimates
  with the Program schedule, challenges in providing timely requirement and certification
  guidance, and coordination issues with other Federal agencies. Failure to address each of
  these challenges in a timely manner could significantly delay the availability of
  commercial crew transportation services and extend U.S. reliance on the Russians for
  crew transportation to the ISS.

  NASA’s Commercial Partners Meeting Early Development Milestones, but Face
  Significant Future Challenges. While their development approaches vary, all three
  commercial crew partners are successfully executing their spaceflight development
  efforts in accordance with their Space Act Agreements and FAR-based contracts. Each
  partner has completed its preliminary space system design and is in the process of
  finalizing that design and conducting component testing. In December 2012, NASA
  awarded all three partners a Phase 1 FAR-based certification contract pursuant to which
  the partners are working to ensure their space systems meet NASA requirements.
  However, Critical Design Review and other key milestones historically associated with
  cost and schedule delays remain to be completed.

  NASA Must Overcome Major Hurdles to Provide Commercial Crew
  Transportation on Current Schedule. We identified four significant challenges to
  NASA’s spaceflight development program for crewed flights to the ISS: unstable
  funding, alignment of cost estimates with the Program schedule, challenges in providing
  timely requirement and certification guidance, and spaceflight coordination issues with
  other Federal agencies.




REPORT NO. IG-14-001                                                                          iii
                                                                                                       OVERVIEW



     Funding Instability Jeopardizes NASA’s Plans to Begin Certified Crew Missions to the
     ISS by 2017. The Program received only 38 percent of its originally requested funding
     for FYs 2011 through 2013, bringing the current aggregate budget shortfall to $1.1 billion
     when comparing funding requested to funding received. As a result, NASA has delayed
     the first crewed mission to the ISS from FY 2015 to at least FY 2017. For FY 2013,
     Commercial Crew Program managers had already expected less than the requested
     $830 million and based their planning on a funding level of $525 million. The
     combination of a future flat-funding profile and lower-than-expected levels of funding
     over the past 3 years may delay the first crewed launch beyond 2017 and closer to 2020,
     the current expected end of the operational life of the ISS.4

     Aligning Cost Estimates with Program Schedule May Enhance Management and Improve
     Transparency of Commercial Crew Program. Although NASA’s Commercial Crew
     partners have completed their preliminary spacecraft designs, NASA managers have yet
     to develop a life cycle cost estimate for the Program. Life cycle costs are the anticipated
     annual costs of a program throughout its life, from preliminary design through the end of
     operations. According to Agency guidance, program managers should develop a life
     cycle cost estimate before Preliminary Design Review has been completed to help avoid
     future development delays caused by a lack of funding.5 However, Program officials told
     us that this guidance does not apply to programs developed using Space Act Agreements
     and that developing such estimates for these type of programs is difficult due to a number
     of factors, including lack of historical cost data. Accordingly, rather than life cycle cost
     estimates, NASA developed independent government cost estimates projecting the
     overall cost to complete development and certification of the complete system based
     upon data supplied by the commercial partners, NASA insight into each company’s
     program, and historical data from other NASA and Air Force rocket programs. Although
     these estimates provided some indication of the cost to develop a viable commercial crew
     transportation capability, they do not provide the same level of fidelity regarding overall
     costs as a life cycle cost estimate.

     We acknowledge the difficulties in developing a comprehensive life cycle cost estimate
     for a program using a unique and still evolving acquisition approach for which there is
     limited comparable historical data. However, without a detailed cost estimate for each
     year of the program based upon a complete analysis of each subcomponent of the
     program over time, it is difficult for NASA to calculate how much funding is required
     each year given that costs over time can fluctuate significantly. Moreover, improved
     guidance requiring detailed cost estimates earlier in program development may help
     enhance the transparency of NASA’s congressional budget submissions. To this point,
     members of Congress and the NASA Aerospace Safety Advisory Panel have stated that
     the lack of this type of information makes it difficult to know with any level of
     confidence the amount of government money required to develop a viable commercial

     4
         NASA has studies underway to determine if the lifespan of the ISS can be extended until 2028, but no
         firm decisions have been made regarding any extension.
     5
         NASA, “NASA Cost Estimating Handbook” (2008).



iv                                                                                       REPORT NO. IG-14-001
OVERVIEW



  crew transportation capability.6 In our judgment, because NASA now has some historical
  cost data from the Commercial Crew Program, it is better positioned to develop improved
  guidance for cost estimating when systems are developed using Space Act Agreements.

  Timeliness of NASA’s Process for Considering Alternative Human Rating Requirements
  Remains a Concern. NASA has been challenged to provide partners with timely
  requirement and certification guidance during the current period of development. While
  NASA used Space Act Agreements to encourage innovative designs by its partners
  during system development, it is using FAR-based firm-fixed-price contracts for the
  certification process. As such, the partners must rely on timely guidance and information
  from NASA, and delays could affect their ability to move forward with production. As a
  result, the certification contracts include a 90-day goal for NASA to respond to partner
  requests for requirement and certification guidance. However, the general Program
  Control Board process used by NASA to make programmatic decisions does not
  consistently result in 90-day resolution of these requests.

  NASA’s partners told us that they need resolution of requests for requirement and
  certification guidance within 30-90 days in order to avoid delays or additional costs. As
  of July 2013, over 65 percent of partner requests for alternate requirement standards and
  deviations have been pending more than 90 days without resolution. Although program
  officials said they expect to clear most of the requests in 120 days and that this timeline
  should meet the contractors’ needs, we noted a significant number of requests pending
  more than 120 days. Cost increases and schedule overruns may result if NASA is unable
  to provide timely and accurate confirmation of requirements and certification guidance.

  Coordination of Spaceflight Safety Issues with Other Federal Agencies is Ongoing. The
  transition from NASA-provided space transportation to low Earth orbit and the ISS to
  commercially supplied space transportation services, especially for human space travel,
  requires coordination between multiple government agencies. Although NASA and the
  Federal Aviation Administration (FAA) have taken positive steps to coordinate their efforts,
  complex range safety, legal, and insurance issues require additional coordination. NASA
  and the FAA signed a Memorandum of Understanding in June 2012 on how to collaborate
  on and coordinate their respective roles; however, the U.S. Air Force launch ranges are not
  yet part of what needs to be a coordinated effort and Program officials are attempting to
  establish a tri-party safety steering group composed of these three agencies. However, the
  steering group’s authority and NASA’s authority to influence other agencies’ actions has not
  yet been clearly established. Failure to coordinate effectively with the FAA and the Air
  Force regarding these issues could adversely affect NASA’s efforts to facilitate commercial
  human space travel.




  6
      House Committee on Science, Space and Technology Hearing, “Recent Developments in NASA’s
      Commercial Crew Acquisition Strategy” (September 14, 2012).



REPORT NO. IG-14-001                                                                             v
                                                                                     OVERVIEW



     Management Action

     In order to increase the accuracy and transparency of Agency budget submissions, we
     recommended that NASA revise its guidance, to the extent practical, to ensure that
     managers of space system development programs in which Space Act Agreements are
     used provide detailed cost estimates for each year of the program based upon a complete
     analysis of the program over time before preliminary designs are completed. We also
     recommended that the Associate Administrator for the Human Exploration and
     Operations Mission Directorate examine whether more comprehensive costs estimates
     should be developed by the Commercial Crew Program before the completion of the
     Critical Design Reviews by NASA’s current commercial partners; routinely track
     adherence to the 90-day goal for responding to contractor requests for alternate
     requirement standards and variances and explore ways to facilitate the process; and, in
     conjunction with the FAA and the Air Force, formally establish a tri-agency Safety
     Steering Group for resolution of issues involving crew and public safety during
     commercial spaceflight operations.

     NASA and the Associate Administrator concurred with our recommendations and agreed
     to take corrective actions. We consider these proposed corrective actions responsive;
     therefore, the recommendations are resolved and will be closed upon completion and
     verification of those actions.




vi                                                                       REPORT NO. IG-14-001
NOVEMBER 13, 2013




                                                          CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 7

  RESULTS
      NASA’s Commercial Partners Meeting Early Development
        Milestones But Face Significant Future Challenges _________ 9
      NASA Must Overcome Major Hurdles to Provide
        Commercial Crew Transportation on Current Schedule _____ 15

  APPENDIX A
      Scope and Methodology _______________________________ 35
      Review of Internal Controls ____________________________ 36
      Prior Coverage ______________________________________ 37

  APPENDIX B
      Commercial Partner Tables ____________________________ 38

  APPENDIX C
      Comparison of Original and Revised Acquisition Strategies for
        the Crew Program _________________________________ 43

  APPENDIX D
      Management Comments ______________________________ 44

  APPENDIX E
      Report Distribution ___________________________________ 47




REPORT NO. IG-14-001
NOVEMBER 13, 2013




                                                                                  INTRODUCTION


Background

  Since the termination of the Space Shuttle Program in July 2011, the United States has
  lacked a domestic capability to transport crew and – until recently – cargo to and from the
  International Space Station (ISS or Station). Consequently, NASA has been relying on
  the Russian Federal Space Agency (Roscosmos) for crew transportation, and the
  Europeans and the Japanese for cargo transportation. Between 2012 and 2017, NASA is
  committed to pay Roscosmos $1.7 billion to ferry its astronauts and international partners
  to and from the ISS, at prices ranging from $47 million to more than $70 million per seat.
  After 2017, NASA hopes to secure transportation to the ISS from an American company
  or companies.

  In anticipation of the Shuttle’s retirement, Federal law directed NASA to foster the
  commercial spaceflight industry as a means of developing domestic cargo and crew
  transportation capabilities to the Station. In November 2005, NASA created the
  Commercial Crew and Cargo Program Office to work toward this goal and in 2011,
  activated a separate Commercial Crew Program Office to reflect the increased funding
  and priority for commercial crew development.

  The Office of Inspector General (OIG) issued a report in June 2013 examining NASA’s
  efforts to foster a commercial cargo capability. In that audit, we discussed NASA’s
  funding over the past 7 years of two companies – Space Exploration Technologies
  Corporation (SpaceX) and Orbital Sciences Corporation (Orbital) – to further
  development of spaceflight capabilities and, on a separate track, the Agency’s contracts
  with the companies for a combined 20 cargo resupply missions to the ISS.7 As a
  complement to that report, this review examines NASA’s efforts to foster development of
  a commercial spaceflight industry capable of carrying NASA astronauts to the Station –
  known officially as the Commercial Crew Program.

  Space Act Agreements. Under the National Aeronautics and Space Act of 1958, NASA
  has authority to enter into agreements with private companies and other non-Government
  entities that are not required to follow the general contract requirements of the Federal
  Acquisition Regulation (FAR). These Space Act Agreements establish a set of legally
  enforceable commitments between NASA and a partner to accomplish a stated objective



  7
      NASA OIG, “Commercial Cargo: NASA’s Management of Commercial Orbital Transportation Services
      and ISS Commercial Resupply Contracts” (IG-13-016, June 13, 2013). In March 2013, SpaceX
      successfully completed its second Station resupply mission, while Orbital is scheduled to undertake its
      first resupply mission in December 2013.



REPORT NO. IG-14-001                                                                                            1
                                                                                                    INTRODUCTION



    related to the Agency’s mission that does not involve acquiring specific goods or
    services. As of September 2013, NASA reported having more than 2,500 Space Act
    Agreements with companies, educational institutions, state and Federal government
    organizations, and foreign governments and entities.

    Space Act Agreements may be funded, reimbursable, or non-reimbursable (unfunded)
    agreements. NASA may enter into funded agreements only with domestic partners and
    only when it cannot achieve its objectives through other types of instruments, including
    traditional FAR-based contracts.8 In non-reimbursable agreements, each party bears the
    cost of participation with no exchange of funds, while in reimbursable agreements a
    partner reimburses NASA for resources or services the Agency supplies, such as test
    facilities, supplies, or engineering expertise. Since 2006, NASA has awarded funded
    Space Act Agreements to 12 commercial partners with the goal of stimulating both the
    development of commercial capabilities NASA could use to transport its astronauts and
    cargo to the Station as well as a wider commercial market for spaceflight services.

    Using funded Space Act Agreements rather than FAR-based contracts to develop new
    transportation capabilities has several potential benefits. First, because NASA’s partners
    share development costs and the agreements involve fewer regulations and require less
    oversight by the Agency, they may reduce the cost to NASA of eventually acquiring
    services from these companies. Second, because NASA does not impose specific
    requirements on the companies as part of the agreements, they are free to develop
    spacecraft designs that will support the needs of both NASA and other potential
    customers. Third, NASA officials believe that the greater flexibility offered by Space
    Act Agreements promotes creativity and innovation.

    However, NASA’s use of Space Act Agreements also poses risks, most prominently
    limiting the Agency’s ability to dictate specific requirements and its oversight of the
    companies during the development process. These limitations make it more difficult to
    ensure that the companies will ultimately produce spaceflight systems that meet Agency
    requirements and that NASA can be confident they will safely carry its astronauts to and
    from the ISS.

    As part of the Space Act Agreements, NASA and the companies agreed to a series of
    developmental milestones that tie payments to satisfactory completion of such events as
    design reviews, sub-system testing, and safety and certification reviews. NASA
    negotiated milestone entry requirements and exit performance criteria with each partner
    based on their developmental approaches during the solicitation phase of the
    Agreements.9 As opposed to a traditional FAR-based contract in which NASA dictates
    the detailed requirements a company must meet, these milestones and criteria were
    tailored by the individual companies and negotiated with NASA.

    8
        NASA Policy Directive 1050.11, “Authority to Enter into Space Act Agreements” (December 23, 2008).
    9
        Entry criteria are what a partner needs to perform or provide before reaching the milestone. Exit criteria
        are what must be performed in order to achieve successful completion of the milestone.



2                                                                                          REPORT NO. IG-14-001
INTRODUCTION



  Although NASA has successfully used Space Act Agreements to develop commercial
  vehicles capable of carrying cargo to the ISS, using this approach to develop major
  spaceflight systems is still somewhat novel and one that NASA has been refining over
  time. To ensure a more thorough evaluation process – and based on lessons learned
  during the commercial cargo program – the Agency has added more specific criteria for
  determining when it will consider particular milestones satisfactorily completed. For
  example, the entry criteria for Commercial Crew’s Critical Design Review include
  partners providing NASA over 40 specific technical products at least 30 days before the
  event takes place. In contrast, the entry criteria for Critical Design Review for NASA’s
  commercial cargo program called for up to 16 sets of documents due only 7 to 14 days
  before the review.

  Commercial Crew Program. NASA’s efforts to facilitate the development of a
  commercial crew transportation capability began in earnest in February 2010 when the
  Agency awarded $50 million in Space Act Agreements to five commercial partners to
  help fund research and design of key technologies and systems. Known as Commercial
  Crew Development Round 1 (CCDev1), NASA awarded funded agreements to Sierra
  Nevada Corporation (Sierra Nevada) ($20 million), The Boeing Company (Boeing)
  ($18 million), United Launch Alliance ($6.7 million), Blue Origin, LLC ($3.7 million),
  and Paragon Space Development Corporation (Paragon) ($1.44 million) for varying
  component designs for capsules and launch abort and life support systems. In
  April 2011, NASA awarded $270 million in Commercial Crew Development Round 2
  (CCDev2) Space Act Agreements to Boeing, Sierra Nevada, SpaceX, and Blue Origin for
  further development ending in Preliminary Design Reviews. Additional milestones were
  added in September 2011, bringing the total aggregate value of CCDev2 to
  $315.5 million.10 Subsequently, NASA entered into additional unfunded agreements
  with Alliance Techsystems, Inc., Excalibur Almaz, and United Launch Alliance to
  provide technical assistance on space transportation concepts that included the human
  rating of various launch systems. (See Appendix B for more information concerning
  these Commercial Crew Space Act Agreements.)

  In December 2011, NASA published the Commercial Crew Transportation 1100 series,
  which now includes 281 technical and safety requirements commercial spaceflight
  vehicles will need to meet to receive NASA certification. This documentation also
  describes the methodology NASA uses to oversee partner activities, namely embedding
  “Partner Integration Teams” at each company composed of NASA employees who work
  with company personnel to gain insight and provide technical assistance. According to
  Program officials, these teams are helping NASA determine whether the partners have
  met their Space Act Agreement milestones and will be critical when the companies seek
  certification from the Agency for their vehicles.




  10
       Blue Origin completed the funded CCDev2 milestones and received final payment, but NASA and Blue
       Origin agreed to continue work until mid-2014 in an unfunded status.



REPORT NO. IG-14-001                                                                                      3
                                                                                   INTRODUCTION



    Acquisition Strategy. After completion of the initial two rounds of development using
    Space Act Agreements, NASA planned a two-phased, FAR-based acquisition to further
    the development of its partners’ commercial crew capabilities. Phase 1 was to consist of
    firm-fixed-price contracts to multiple companies for integrated design and early
    development followed by a second round of firm-fixed-price contracts for additional
    development, testing, evaluation, and certification of the contractors’ crew transportation
    systems. Thereafter, NASA planned to enter into a FAR-based contract for crewed
    missions to the ISS, which it hoped to begin by 2016.

    For fiscal year (FY) 2012, NASA requested $850 million for its Commercial Crew
    Program but received only $397 million. Consequently, NASA revised its Commercial
    Crew Acquisition Strategy to continue supporting partners’ commercial development
    using Space Act Agreements rather than using FAR-based contracts to procure
    development work specifically tailored to NASA’s requirements. The Agency also
    delayed the expected first commercial crew flight from the end of 2016 to mid-2017.

    Figure 1 depicts NASA’s revised acquisition strategy: Space Act Agreements for
    development (Part 1), FAR-based certification contracts to achieve a crewed
    demonstration and certification (Part 2), and a FAR-based services contract for delivery
    of NASA astronauts to the ISS (Part 3). As of August 2013, the same three companies
    working on development via Space Act Agreements – Boeing, SpaceX, and Sierra
    Nevada – are simultaneously preparing certification documents for review pursuant to the
    certification contract. (See Appendix C for a comparison of the original and revised
    acquisition strategies.)




4                                                                          REPORT NO. IG-14-001
INTRODUCTION



                              Figure 1: Commercial Crew Acquisition Strategy




  Source: NASA OIG presentation of Program information.

  In Part 1 of its strategy, known as Commercial Crew Integrated Capability (CCiCap),
  NASA partnered with the companies using Space Act Agreements to mature the design
  and development of transportation systems that include spacecraft, launch vehicles, and
  ground and mission systems. Boeing was awarded $480 million, SpaceX $460 million,
  and Sierra Nevada $227.5 million. In addition to component testing and other design
  reviews, the goal is for Boeing and SpaceX is to achieve a company-defined Critical
  Design Review by May 2014 and Sierra Nevada a partial Critical Design Review by
  October 2013.11

  In December 2012, NASA initiated Part 2 of its acquisition strategy by commencing
  work on the Certification Products Contract (CPC), the first of two phases of

  11
       As defined by NASA, a Critical Design Review demonstrates that the maturity of the program’s design is
       appropriate to support proceeding to full-scale fabrication, assembly, integration, and testing and that the
       technical effort is on track to complete the flight and ground system development and mission operations.
       For the Commercial Crew Program, the companies defined their own requirements for achieving Critical
       Design Review, with review and concurrence by NASA.



REPORT NO. IG-14-001                                                                                                  5
                                                                                                   INTRODUCTION



    certification. These FAR-based contracts seek to ensure the partners’ systems will meet
    NASA’s safety and operational requirements. In Phase 1, NASA awarded firm-fixed-
    price contracts worth approximately $10 million each to Boeing, SpaceX, and Sierra
    Nevada for delivery and acceptance of certification plans for their crew transportation
    system. In Phase 2 of certification, known as the Commercial Crew Transportation
    Capability (CCtCap) and scheduled for award in July 2014, NASA plans to enter into at
    least one but ideally two firm-fixed-price contracts for the verification, validation, test,
    and final certification of a crew transportation system or systems. NASA plans to
    implement Part 3 of the acquisition strategy shown in Figure 1 by issuing a firm-fixed-
    price ISS transportation services contract to at least one partner in 2017.12

    Competition in the Commercial Crew Program. NASA’s current acquisition strategy
    attempts to control costs by encouraging competition and using a mix of Space Act
    Agreements and firm-fixed-price contracts.13 NASA officials said that entering into
    Space Act Agreements with multiple partners encourages high performance because the
    companies can position themselves to compete for the certification and transportation
    services contract. Officials also said that engaging multiple partners maintains a needed
    redundancy if one provider cannot perform to the Agency’s satisfaction.

    While NASA officials said they would prefer to continue to work with at least two
    companies until the transportation services contract, a lack of funding will likely require
    them to “down select” to a single partner during Phase 2 of Certification, which is
    currently scheduled to begin in mid-2014. Moving forward with a single company
    increases the risk that NASA could be left without a viable commercial option to
    transport crew to the ISS should issues arise that either significantly delay or render
    inoperable the selected company’s systems. While down selecting to one company is
    likely to save NASA money in the short term, experience from other major spaceflight
    programs illustrates that a lack of competition ultimately can drive up costs.14




    12
         On July 19, 2013, NASA released a draft Request for Proposal for the Phase 2 Certification under which
         it is proposing to use a FAR-based, firm-fixed-price contract for the final stages of development and
         certification. This includes a crewed system demonstration mission to the ISS and the potential to
         execute up to six crewed service missions. This phase is now called CCtCap.
    13
         Although firm-fixed-price contracts are referenced in the Agency’s acquisition strategy, Program
         managers said a final decision on the type of contract the Agency will use has not been made.
    14
         For example, cost per flight in the U.S. Air Force’s Evolved Expendable Launch Vehicle Program
         increased from $72 million in 1998 to $460 million in 2012. The Air Force originally awarded contracts
         to Boeing and Lockheed Martin, but in 2006, the companies created a joint venture known as the United
         Launch Alliance. In 2011, the Government Accountability Office (GAO) reported that a lack of
         competition coupled with a significant decrease in demand caused the increase in per-flight costs. In
         December 2012, the Air Force awarded SpaceX two Evolved Expendable Launch Vehicle-class missions
         and in June 2013 signed a cooperative agreement with the company to begin certifying an upgraded
         version of the Falcon 9 for the two missions – the first scheduled to take place in 2014 at a cost of $97
         million and the second in 2015 at a cost of $165 million – less than half the cost of current United
         Launch Alliance missions.



6                                                                                         REPORT NO. IG-14-001
INTRODUCTION



Objectives

  Given the importance of the Commercial Crew Program to NASA’s human spaceflight
  efforts, we assessed: (1) Boeing, Space X, and Sierra Nevada’s progress toward
  developing a certified crew transportation capability and (2) the challenges remaining to
  successful implementation of the Program.

  This audit focused on the funded partners in the CCiCap phase of the Commercial Crew
  Program. See Appendix A for details of the audit’s scope and methodology, our review of
  internal controls, and a list of prior coverage. Prior coverage by NASA OIG includes a
  June 2011 audit report entitled, “NASA’s Challenges Certifying and Acquiring
  Commercial Crew Transportation Services” (IG-11-022, June 30, 2011). Cost and
  schedule information in this report is current as of August 31, 2013.




REPORT NO. IG-14-001                                                                          7
RESULTS




                       NASA’S COMMERCIAL PARTNERS MEETING EARLY
                                DEVELOPMENT MILESTONES BUT FACE
                                  SIGNIFICANT FUTURE CHALLENGES

             While their development approaches vary, Boeing, SpaceX, and Sierra Nevada
             are achieving the development milestones specified in their Space Act
             Agreements with NASA. To date, each partner has completed its initial design
             and is in the process of finalizing that design and conducting component testing.
             In December 2012, NASA awarded the three companies Phase 1 FAR-based
             certification contracts designed to ensure that their spaceflight systems will meet
             NASA’s safety and performance requirements. However, the Critical Design
             Review and other key developmental milestones historically associated with cost
             increases and schedule delays lie ahead.

Partners Have Varied Approaches to System Design

  Under their Space Act Agreements, each company is required to complete its spacecraft
  design and a significant amount of component testing by mid-2014.15 Each company’s
  milestones focus on areas that highlight its individual approach to designing and
  developing spacecraft. For example, SpaceX’s milestones include a Pad Abort Test
  scheduled for December 2013 and an evaluation of the structural integrity of the Dragon
  capsule scheduled for January 2014, both of which highlight the company’s focus on
  fabricating components themselves and testing them on a routine basis. Boeing, on the
  other hand, has extensive experience designing, developing, and building space systems
  using a traditional acquisition approach for its work on the ISS and the Space Shuttle.
  Thus, Boeing’s milestones focus on component-level design reviews, such as a structural
  Critical Design Review in October 2013 and a service module propulsion system Critical
  Design Review in November 2013.

  As shown in Table 1, each company has a different approach to spacecraft development.
  For example, Boeing and Sierra Nevada plan to use the Atlas V launch vehicle to
  transport their spacecraft to the ISS, while SpaceX will launch the Dragon capsule with
  its own Falcon 9 rocket. The United Launch Alliance – which is partially owned by
  Boeing – builds the Atlas V, allowing Boeing to directly influence the upgrades required
  to certify the launch system for human transportation. In addition, Boeing and SpaceX
  utilize a similar capsule design that deploys a parachute for landing on a dry surface
  while Sierra Nevada plans to land its Dream Chaser on a conventional airport runway.




  15
       Specifically, the Space Act Agreements provide that “the goals of the CCiCap investments are to enable
       significant progress on maturing the design and development of an integrated commercial transportation
       system while ensuring crew and passenger safety.”


REPORT NO. IG-14-001                                                                                            9
                                                                                               RESULTS



                                Table 1: NASA Commercial Partner Profiles




     Source: OIG summary of Commercial Crew Program data.

Partners are Meeting Early Development Milestones

     To date, Boeing, SpaceX, and Sierra Nevada have been meeting the milestones specified
     in their Space Act Agreements. These include completion of preliminary designs and
     conducting extensive component-level testing on various aspects of the vehicles.
     However, the design of the companies’ systems have yet to be fully matured or achieve
     what amounts to a Critical Design Review. This review and the process used to prepare
     for it often reveal shortcomings that must be addressed prior to finalizing spacecraft
     design and initiating the manufacturing process.

     Past studies have shown that unexpected costs and schedule delays are common during
     production of space systems.16 As yet, none of the companies have begun producing an
     actual spacecraft for a flight to the ISS, only test articles and prototypes.




     16
          GAO, “NASA: Assessments Selected Large Scale Projects” (GAO-12-207SP, March 2012).


10                                                                                REPORT NO. IG-14-001
RESULTS



  Table 2 shows each partner’s progress and performance as of August 2013. All three
  have completed a design review similar to the process NASA would use if it were
  developing the space systems in-house.17 To date, SpaceX and Boeing have completed
  all milestones associated with CCDev2 and progressed beyond a Preliminary Design
  Review level of maturity. Sierra Nevada has one CCDev2 milestone remaining – a test
  flight of its engineering test article. While SpaceX completed all CCDev2 milestones on
  schedule, Boeing experienced minor delays with software development and Sierra
  Nevada experienced significant delays with drop tests.

                          Table 2: Status of Commercial Crew Program Partners




  Source: OIG summary of Commercial Crew Program data.

  In addition, as of August 2013, all three partners were meeting their CCiCap milestones
  and have concurrently begun work on their CPCs. CPC Phase 1 work, which includes
  submitting reports and plans to NASA to ensure compliance with Agency requirements
  and certification guidance, began in January 2013.18 By May 2014, each partner is



  17
       A Preliminary Design Review demonstrates that the preliminary design meets all requirements with
       acceptable risk and shows that the correct design options have been selected, interfaces have been
       identified, and verification methods have been described.
  18
       The CPC requires submission of four products: (1) alternate standards and variances (if applicable), (2)
       hazard reports, (3) verification and validation plans, and (4) certification plans. Each product was
       submitted to NASA in May 2013 for initial review, with final submissions due in February 2014.


REPORT NO. IG-14-001                                                                                              11
                                                                                                        RESULTS



     scheduled to complete CPC Phase 1, while Boeing and SpaceX should complete a
     Critical Design Review. Sierra Nevada – which received about half the amount of money
     NASA provided the other two partners – is aiming to achieve the first of multiple
     incremental Critical Design Reviews by October 2013.

     Boeing. As of August 2013, Boeing has completed 8 of their 20 CCiCap milestones and
     is scheduled to receive up to $480 million. In addition, NASA has the option to execute
     additional milestones designed to further mature Boeing’s spacecraft design and enable a
     full system demonstration.

               Milestone 1 (August 2012) – completed an integrated system review.19

               Milestone 2 (October 2012) – completed a production design review to determine
                if subsystems are sufficiently mature to enter production and production plans are
                correct.

               Milestone 3 (November 2012) – completed a phase 1 safety review of
                requirements, vehicle architecture and design, and associated safety products.

               Milestone 4 (January 2013) – completed a software integrated engineering release
                demonstrating the capabilities of guidance and navigation and control software.

               Milestone 5 (January 2013) – completed a landing, recovery, and ground
                communications design review.

               Milestone 6 (February 2013) – completed a design review of the launch vehicle
                adapter by which the CST-100 capsule will be attached to the Atlas V launch
                vehicle.

               Milestone 7 (April 2013) – completed an integrated wind tunnel test to analyze
                the aerodynamic attributes of the launch vehicle and capsule during ascent.

               Milestone 8 (May 2013) – completed a dual engine centaur liquid oxygen duct
                development test to assess interface and water flow for liquid oxygen ducts.

     Moving forward, Boeing has scheduled other reviews and testing expected to culminate
     in a Critical Design Review in April 2014. During CCDev2, Boeing experienced delays
     in software development and completed its final CCDev2 milestone in February 2013,
     7 months behind schedule. According to NASA officials, Boeing must continue to
     address software issues or risk delaying its plans for a 2016 demonstration flight to the
     ISS.

     19
          An integrated system review confirms that segments, components, and subsystems are available and
          ready to be integrated into the overall spaceflight system. In addition, such a review examines
          integration facilities, support personnel, and integration plans and procedures.




12                                                                                      REPORT NO. IG-14-001
RESULTS



  SpaceX.20 As of August 2013, SpaceX has completed 7 of its 16 CCiCap milestones and
  is scheduled to receive $460 million. In addition, NASA may execute optional
  milestones designed to progress the company’s system to a full demonstration by
  December 2015.

            Milestone 1 (August 2012) – held a kick-off meeting to present NASA with the
             company’s plans for completing CCiCap milestones.

            Milestone 2 (August 2012) – submitted an analysis of its finances for its crew
             program to demonstrate the company’s ability to successfully complete CCiCap
             goals.

            Milestone 3 (October 2012) – completed an integrated systems requirements
             review, including a review of its plans for system design, production, and
             operations and how they will meet NASA’s requirements.

            Milestone 4 (December 2012) – completed a ground systems and ascent
             Preliminary Design Review to demonstrate that its system meets all related
             requirements with acceptable risk and within schedule constraints.

            Milestone 5 (March 2013) – completed a pad abort test review to demonstrate the
             maturity of the pad abort test article design and test concept of operations.

            Milestone 6 (May 2013) – completed a human certification plan review to define
             in detail the company’s approach to certifying the design of the spacecraft, launch
             vehicle, and ground and mission operations systems.

            Milestone 7 (July 2013) – completed the on-orbit and entry Preliminary Design
             Review to demonstrate that its system can orbit, rendezvous, and dock with the
             ISS.

  Moving forward, SpaceX has scheduled additional testing and certification milestones,
  including an on-orbit and entry Preliminary Design Review and an in-flight abort test
  review as they work toward a Critical Design Review in March 2014.

  Sierra Nevada. As of August 2013, Sierra Nevada has completed 4 of their 12 CCiCap
  milestones and is scheduled to receive up to $227.5 million. The company has laid out a
  plan that includes advanced development milestones culminating in a full systems
  demonstration to the ISS before the end of 2017. Unlike the other partners, NASA has
  only funded Sierra Nevada for the first of multiple incremental Critical Design Reviews.
  However, NASA may choose to fund additional incremental Critical Design Reviews and
  other optional milestones.

  20
       SpaceX entered the commercial crew arena with a flight-tested rocket system. The company’s Falcon 9
       rocket and Dragon Capsule have flown four times to low Earth orbit and berthed to the ISS three times
       on cargo missions. Although not yet human rated, SpaceX designed the Dragon for astronaut
       transportation.


REPORT NO. IG-14-001                                                                                           13
                                                                                                             RESULTS



               Milestone 1 (August 2012) – completed a review of its plan for implementing
                CCiCap.

               Milestone 2 (October 2012) – completed an integration system baseline review
                demonstrating maturity of its integration plan and operations design.

               Milestone 3 (January 2013) – completed an integration system safety analysis
                review demonstrating the safety of the Dream Chaser Space System.

               Milestone 5 (June 2013) – completed an investment milestone reflecting its
                financial commitment and ability to co-fund its system.21

     Moving forward, Sierra Nevada has scheduled additional reviews and tests, including
     wind tunnel testing scheduled to be completed in February 2014. Sierra Nevada faced
     challenges during CCDev2 with respect to performing a successful drop test and has yet
     to complete this milestone, which was scheduled for October 2013. To maintain its
     schedule during CCiCap, Sierra Nevada must work to address these delays and complete
     the remaining milestones, which consist of extensive testing of crew and life support
     systems and additional aerodynamic tests.




     21
          Sierra Nevada is scheduled to complete Milestone 4 in late 2013, which will consist of one to five
          engineering test article free flight(s) to analyze aerodynamic data during the approach and landing phase
          of the Dream Chaser.


14                                                                                          REPORT NO. IG-14-001
RESULTS




                                NASA MUST OVERCOME MAJOR HURDLES TO
                                            PROVIDE COMMERCIAL CREW
                                  TRANSPORTATION ON CURRENT SCHEDULE


             Although NASA’s three commercial crew partners have been achieving their
             early development milestones, the Commercial Crew Program faces significant
             internal and external challenges to meeting NASA’s goal of securing crew
             transportation to the ISS by 2017. First, for the past several years the Program
             has received significantly less funding than NASA requested. As a result, NASA
             has delayed the target date for the first crewed flight to the ISS to FY 2017, only
             3 years before the currently scheduled end of ISS operations.22 Further,
             experience has shown that reduced funding profiles are not consistent with best
             practices for space system development and continuation of this funding pattern
             could result in additional cost increases, schedule delays, and a lack of
             competition later in the Program’s development. Second, NASA has yet to
             project the total amount of funding required by year, which makes it difficult for
             the Agency to manage its wider portfolio of spaceflight programs and at the same
             time reduces the transparency of the Program’s budget submissions. Third, the
             process for providing timely guidance to partners for satisfying NASA’s human
             rating and certification requirements could be improved. If NASA is unable to
             confirm design requirements and provide certification guidance in a timely
             manner, the companies could face costly and time-consuming redesign work late
             in system development. Finally, coordination of important safety issues with the
             Federal Aviation Administration (FAA) and the Air Force is ongoing, but not yet
             resolved. Failure to address these challenges could significantly delay the
             availability of commercial crew transportation services and extend U.S. reliance
             on the Russians for crew transportation to the ISS.

Funding Instability Jeopardizes NASA’s Plans to Begin Certified
  Crew Missions to the ISS by 2017

  Throughout its existence, NASA’s Commercial Crew Program has received budget
  appropriations that were substantially lower than requested. Perhaps the most tangible
  impact of these funding shortfalls has been the 2-year delay of the first crewed
  demonstration flight to the ISS by a commercial partner.

  Specifically, for FY 2013, the Program received $525 million or 37 percent less than the
  President’s budget request. The year before, the Commercial Crew Program requested
  $850 million but received $397 million, less than half its request. Overall, when

  22
       By law, the ISS must be maintained until at least 2020, but NASA is examining the feasibility of
       extending the Station’s life.


REPORT NO. IG-14-001                                                                                      15
                                                                                                             RESULTS



     comparing actual funds received to the original FY 2011 budget request, which was
     based on a $6 billion program developed in 5 years, the Program has received 38 percent
     of its requested funding for FY 2011 through FY 2013 (see Figure 2).

                 Figure 2: Evolution of Commercial Crew President’s Budget Requests from
                                FYs 2011 through 2013 (Dollars in Millions)




     Source: NASA OIG analysis of President’s budget data.

     For subsequent budget requests beginning in FY 2012, the Office of Management and
     Budget reduced the Program’s annual appropriations request and created a “flat-line”
     budget profile by spreading funding evenly over subsequent fiscal years (see Table 3).
     Specifically, for FY 2013 Commercial Crew Program managers had to revise program
     schedules after their budget was reduced from the $830 million requested by the
     President to the $525 million appropriated by Congress.23 Generally speaking, we
     determined that each year’s budget decrement has resulted in an additional year of
     schedule delay. Even if the Program receives its full budget request in future years, the
     cumulative difference between the Program’s initial budget requests and receipts over the
     life of the Program would be approximately $1.1 billion.



     23
          At the end of March 2013, across-the-board budget reductions known as sequestration took effect,
          resulting in a 5 percent funding cut for this Program and most others across the Federal government. In
          addition, Congress imposed an additional 1.877 percent rescission against all Commerce, Justice, and
          Science agencies, which left the Program with $489 million in FY 2013. NASA subsequently submitted
          an operating plan in which it requested additional funds to address the shortfall and, as of August 2013,
          the operating plan was approved and the Program received $525 million – reprogrammed from other
          programs.


16                                                                                          REPORT NO. IG-14-001
RESULTS



          Table 3: Commercial Crew Program Budget Requests by FY (Dollars in millions)




   Source: NASA OIG analysis of President’s budget data.

  Funding Shortfalls Led to Extended Use of Space Act Agreements and Delays to the
  First Crewed Launch. NASA’s original budget estimate for the Commercial Crew
  Program projected that $1.4 billion would be required for FY 2012. Ultimately, NASA
  requested $850 million for the Program that year but received just $397 million.

  NASA’s first acquisition plan for developing the Commercial Crew Program anticipated
  the use of FAR-based contracts starting in late FY 2012 for the integration phase of
  development. During integration, NASA expected its partners to progress to a point
  where their system designs were mature. According to NASA officials, FY 2012 funding
  was insufficient to execute this plan. As a result, they continued to use funded Space Act
  Agreements to support the companies’ development efforts.24 Under this revised
  acquisition plan, NASA is also using FAR-based contracts to start certification activities
  and running that process parallel to activities under the Space Act Agreements. Even
  with this shift in procurement strategy, the budget reductions resulted in schedule delays,
  postponement of certification, and a delay in the completion of commercial crew
  development from FY 2016 to mid-FY 2017.

  NASA officials told us that keeping multiple partners in the Program for as long as
  possible is essential to maintain redundant capability and competitiveness. For the next
  phase of development, including full system certification and demonstrations to the ISS,
  NASA plans to use a FAR-based contract.

  However, continued funding shortfalls will only increase pressure on NASA to “down
  select” to a single company. Acknowledging this point in a March 2013 hearing, the
  NASA Administrator stated that funding profiles will affect the number of companies
  NASA will be able to fund during the final certification phase.25



  24
       As noted earlier in this report, Space Act Agreements are considered less costly because partners share
       costs.
  25
       Science Subcommittee, U.S. House of Representatives Appropriations Committee, “NASA Oversight
       Hearing,” YouTube (March 20, 2013), http://www.youtube.com/watch?v=5NEW1GIekYk (accessed
       August 20, 2013).


REPORT NO. IG-14-001                                                                                             17
                                                                                             RESULTS



     Although NASA has considered the possibility of continuing to use Space Act
     Agreements during the final phase of development, as noted earlier in this report, Agency
     officials told us they cannot impose specific requirements on partners under a Space Act
     Agreement in the same way they can with a FAR-based contract. Accordingly, they do
     not believe that Space Act Agreements would be suitable vehicles for certifying that
     particular systems meet NASA safety and human rating requirements.

     Current Funding Plan Increases Risk of Further Cost Overruns, Schedule Delays,
     and Impediments to Competition. Decreased and flat-lined funding has already caused
     a 2-year delay in commercial crew development efforts. Moreover, the Program’s
     anticipated funding for FY 2014 and beyond is not consistent with best acquisition
     practices and could manifest in additional problems down the road. Prior audit work by
     the GAO has shown that the most effective budget profile for large and complex space
     system development programs is steady funding in the early stages of development and
     increased funding during middle stages.26 An absence of sufficient funding early in
     development increases cost risks and the potential for schedule delays because project
     managers have to defer development of critical technologies to a time when integration of
     those technologies may be more difficult or when the costs of material and labor may be
     greater. Shifting tasks to later project phases also results in higher fixed costs given the
     need to sustain a work force longer than originally planned or to add shifts in an attempt
     to make up for lost time. In addition, insufficient early funding for development
     decreases management’s ability to identify and address key risks. Finally, insufficient
     funding may make it difficult to maintain two partners thereby eliminating the
     competition. Agency officials maintain that competition increases partner performance
     and helps drive down the price of future contracts.

     A typical space system life cycle model shows a bell-shaped funding curve for research,
     development, testing, and evaluation because more resources are needed as development
     progresses and programmatic risks are identified and remediated (see Figure 3).
     However, while NASA’s FY 2011 budget request for its Commercial Crew Program
     closely resembled the traditional bell curve and anticipated completing development in
     FY 2015, the Program’s actual funding profile for FY 2012 and FY 2013 was flattened
     and the development schedule was extended. The FY 2014 budget request again reflects
     a bell curve, with development funding extended through FY 2018.




     26
          GAO, “GAO Cost Estimating and Assessment Guide” (GAO-09-3SP, March 2009).


18                                                                               REPORT NO. IG-14-001
RESULTS



        Figure 3: Program Evolution of Developmental Funding Budget Requests vs. Typical
                              Funding Profile (Dollars in Millions)




  Note: Solid white milestones reflect actual dollars received in previous years.
  Source: NASA OIG analysis of President’s Budget data and extrapolation to guidance from GAO’s Cost
  Estimating and Assessment Guide.

  If the shortfall in funding continues, NASA officials said it will be difficult for the
  Program to meet its goal of completing development by 2017. While the commercial
  partners could increase their contributions to offset the Government’s reduced funding
  and help keep the Program on track, representatives from one company expressed
  uncertainty with regard to the continued development of their spacecraft in the absence of
  additional funding from the Agency. On average, the three Commercial Crew partners
  are contributing under 20 percent of the CCiCap development costs for their spaceflight
  systems.27

  Two key advisory groups – the Aerospace Safety Advisory Panel (ASAP) and the
  National Research Council – recently published reports addressing the effects of funding
  shortfalls. In its 2012 Annual Report, the ASAP stated:

             From its inception, this program [Commercial Crew] has been funded at levels far below
             what would be expected for a traditional program. NASA’s ability to successfully
             complete the certification process as currently planned and to begin flying [missions] by
             FY 17 will require increased funding for the program starting in FY 13… the ASAP is
             concerned about what tradeoffs NASA and the [partners] will take to accommodate
             future budget shortfall. There appear to be few options available to NASA when the

  27
       For comparison, partner contributions for the cargo development program were roughly 50 percent.


REPORT NO. IG-14-001                                                                                      19
                                                                                                             RESULTS



                budget is reduced. These include stretching the schedule, reducing performance, and/or
                obtaining additional funding. Given NASA’s budget history, it is unlikely there will be
                additional funding.28

     The National Research Council made a similar observation in its 2012 report when
     addressing NASA programs in general:

                …there has been some instability at the programmatic level and the out-year projections
                in the President’s budget are unreliable, which makes it difficult for program managers to
                plan activities that require multi-year planning. Numerous times the agency initiated new
                programs with the expectation that budgets would increase to support them, only to have
                no increases emerge…The approach to and pace of a number of NASA’s programs,
                projects, and activities will not be sustainable if the NASA budget remains flat, as
                                      29
                currently projected.

Aligning Cost Estimates with Program Schedule May Enhance
  Management and Improve Transparency of Commercial Crew
  Program

     According to NASA guidance, managers should develop year-by-year life cycle cost
     estimates for their programs before completing Preliminary Design Review.30 A life
     cycle cost estimate refines a program’s overall cost estimate by determining all possible
     costs required to develop, produce, deploy, and sustain a particular program and
     projecting them over time (by year). This policy is designed to prevent development
     delays in future years caused by inadequate funding levels.

     NASA’s Chief Engineer told us that NASA policies requiring life cycle cost estimates do
     not apply to development efforts that use Space Act Agreements, and that developing life
     cycle estimates for such programs has proven challenging. Therefore, despite completion
     of Preliminary Design Review by NASA’s commercial crew partners, Agency officials
     have yet to develop a life cycle cost estimate for the Program. Instead, NASA developed
     independent government cost estimates that project the overall costs to complete
     development and certification.31 An independent government cost estimate simply
     documents the government’s assessment of the program’s most probable overall cost
     without aligning the cost estimates to a schedule. The Chief Engineer did state that once
     a FAR-based contract is issued for CCtCap, which occurs around the same time the

     28
          ASAP, “Annual Report for 2012” (January 9, 2013).
     29
          Committee on NASA’s Strategic Direction, Division on Engineering and Physical Sciences, National
          Research Council, “NASA’s Strategic Direction and the Need for a National Consensus” (2012).
     30
          NASA Procedural Requirements (NPR) 7120.5E, “NASA Space Flight Program and Project
          Management Requirements w/Changes 1-10” and NPR 7120.5 “NASA Space Flight Program and Project
          Management Handbook” (February 2010).
     31
          An independent government cost estimate is conducted to check the reasonableness of a contractor’s cost
          proposal and to make sure that the offered prices are within the budget range for a particular program. It
          documents the government’s assessment of the program’s most probable cost and ensures that enough
          funds are available to execute it. The Crew Program uses these types of estimates to inform budget
          planning efforts.


20                                                                                          REPORT NO. IG-14-001
RESULTS



  partners are expected to complete their Critical Design Reviews, the Program will
  become more traditional and a life cycle cost estimate will be feasible.

  Because partnering with commercial companies through Space Act Agreements is a
  novel approach to developing human spaceflight transportation capabilities, NASA was
  faced with an array of challenges in developing cost estimates for the Commercial Crew
  Program. For example, Program officials noted that because of varying design
  approaches, each partner’s estimated costs are different, making it difficult to complete a
  comprehensive life cycle cost estimate. In addition, NASA space system acquisition
  programs typically use the NASA/Air Force Cost Model to produce a life cycle estimate,
  which relies on historical information about NASA and Air Force space projects.
  However, because of the unique development approach used for this Program, little
  comparable historical data exists. Adding to the difficulty is that under a Space Act
  Agreement, developmental costs covered by the companies are not a part of Program
  costs and are generally proprietary. Given these factors, cost estimators could not fully
  rely on the model’s early estimates.

  We acknowledge the difficulties in establishing a comprehensive life cycle cost estimate
  for a program using a development approach that is evolving and for which limited
  comparable historical data exists. However, without a detailed cost estimate for each
  year of the program based upon a complete analysis of each subcomponent over time, it
  is difficult for NASA to calculate how much funding is required each year given that
  costs over time can fluctuate significantly. Furthermore, the lack of a comprehensive
  cost estimate makes it more difficult for NASA to manage its wider portfolio of
  spaceflight programs, particularly in a constrained budget environment.

  Improved guidance requiring detailed cost estimates aligned with the program’s schedule
  over time could help enhance the transparency of NASA’s budget submissions. To this
  point, members of Congress and the ASAP have stated that in the absence of this type of
  information it is difficult to know with any level of confidence the amount of government
  money required to develop a viable commercial crew transportation capability.32

  In early 2013, the private consulting group Booz Allen Hamilton (Booz Allen) completed
  an independent assessment of the Commercial Crew Program’s government estimate that
  included costs from the end of CCDev2 through certification.33 Overall, Booz Allen
  found that the Program’s cost estimates were of high quality and followed standard cost
  estimating best practices. However, the assessment found that the estimates were
  optimistic, and that the Program was likely to experience cost growth. In addition, Booz
  Allen noted that without costs projected over the life of the Program, NASA officials will
  not be able to independently evaluate each partner’s progress. Booz Allen recommended

  32
       House Committee on Science, Space and Technology Hearing, “Recent Developments in NASA’s
       Commercial Crew Acquisition Strategy” (September 14, 2012). (Representative Donna F. Edwards and
       Vice Admiral Joseph Dyer-ASAP Chair).
  33
       Booz Allen, “Independent Cost Assessment of the Commercial Crew Program: Independent Cost
       Assessment Report” (March 1, 2013).


REPORT NO. IG-14-001                                                                                      21
                                                                                                                RESULTS



     several efforts to improve the accuracy of the cost estimates, including using an
     integrated schedule and maintaining risk register data.34

     In our judgment, NASA is now better positioned to develop improved guidance for cost
     estimating when systems are developed using Space Act Agreements in light of historical
     cost data received under the Commercial Crew Program.

Timeliness of NASA’s Process for Considering Alternative Human
  Rating Requirements Remains a Concern

     NASA’s current process for considering partners’ requests to use alternate standards or to
     deviate from NASA’s human rating and certification requirements frequently does not
     result in timely decisions.35 The Agency’s current process was developed to ensure
     NASA management sufficiently considers dissenting opinions on safety-related issues.
     While we acknowledge the importance of considering all opinions on safety issues, an
     inability to address partners’ requests in a timely manner risks costly redesign work or
     delays to the Program schedule. Although Program officials expected to process the
     majority of the partners’ requests by mid-September 2013, the partners are expected to
     submit additional requests before the certification planning is completed.

     Human Rating Requirements. “Human rating” is the process of assuring that a
     spacecraft or launch vehicle is capable of safely transporting human beings. Human
     rating concepts developed over the past 60 years include:

                using simpler designs to avoid complex components,

                using well-established and proven aerospace design standards,

                incorporating sufficient redundancy in all critical systems, and

                avoiding untried or unproven technology.

     According to NASA, a human rated system must accommodate human needs; effectively
     utilize human capabilities; control hazards; manage safety risks; and, to the maximum
     extent possible, provide the capability to safely recover the crew from hazardous


     34
          An integrated schedule is a time-based schedule containing the detailed tasks necessary to ensure
          successful program/contract execution. A risk register is a central repository for all risks identified by
          the project that includes information on probability, impact, and counter-measures.
     35
          A partner may request an alternate standard that meets the intent of or is consistent with a NASA
          standard. Variances to requirements occur if a partner cannot meet a requirement, and are generally
          classified as exceptions, deviations, or waivers. NASA defines deviations as requests made during the
          formulation, planning, or design stages of a program to address expected situations and that provide
          temporary relief from a specific requirement in advance. NASA defines exceptions as permanent relief
          from a specific requirement, and they may be requested at any time during the life cycle of the program.
          NASA defines waivers as temporary relief from a specific requirement after the baseline system has been
          approved.


22                                                                                             REPORT NO. IG-14-001
RESULTS



  situations.36 Compliance with these requirements leads to certification that the system is
  suitable for crewed spaceflight. Before securing transportation for its astronauts on a
  commercial spaceflight system, the Agency needs to review and approve the system to
  ensure it meets NASA’s human rating requirements.

  The OIG, GAO, and others have expressed concerns about NASA’s approach to
  determining baseline human rating and safety requirements for commercial crew
  vehicles, and for ensuring that contractors adhere to those requirements. In order to
  stimulate innovative designs, NASA intentionally did not impose human rating and safety
  requirements on its commercial partners during early development. While such an
  approach may foster innovation, it also can raise concerns that partners may be
  developing systems that NASA will ultimately be unable to certify.

  To address this challenge, in December 2011, NASA published a series of detailed
  requirements, certification, and management documents that provide its commercial
  partners with the Agency’s specific safety and human rating objectives:

            Crew Transportation Plan (CCT-PLN-1100) defines the processes for Crew
             Transportation System certification and flight readiness.

            System Design Reference Missions (CCT-DRM-1110) defines reference missions
             to the ISS.

            Crew Transportation Technical Management Processes (CCT-PLN-1120)
             provides the technical management processes that support the certification effort.

            ISS Crew Transportation and Services Requirements Document
             (CCT-REQ-1130) establishes requirements that will be met to achieve
             certification to transport NASA crew.

            Crew Transportation Technical Standards and Design Evaluation Criteria
             (CCT-STD-1140) and Crew Transportation Operations Standards
             (CCT-STD-1150) are intended to guide the development of the crew
             transportation system.37

  These documents outline the fundamental elements a system must satisfy to receive
  certification from NASA. According to NASA and partner personnel, the commercial
  partners have used these documents to ensure that they are integrating NASA’s
  requirements into their transportation system designs. However, NASA has not yet
  certified whether any of the partners’ systems meet the Agency’s requirements.


  36
       NPR 8705.2B, “Human-Rating Requirements for Space Systems (w/change 4 dated 8/21/2012).”
  37
       In addition to these documents, prior to December 2011, NASA also published the Commercial Orbital
       Transportation Services ISS Interface Requirements Document (SSP 50808), which outlines
       requirements for docking with the Station. NASA originally released SSP 50808 in September 2007 to
       provide international partners guidance on docking with the ISS.


REPORT NO. IG-14-001                                                                                        23
                                                                                               RESULTS



     Figure 4 depicts NASA’s strategy for ensuring the partners meet the Agency’s human
     rating and safety requirements. In December 2012, NASA awarded CPC – the first of a
     two-phased, FAR-based contract under which the Agency plans to review the partners’
     transportation system designs to ensure they meet its safety and operational
     requirements.38 In CPC, the partners provide products considered critical to establishing
     expectations for certification by NASA. The CPC statement of work provides criteria
     and requirements to guide the contractors’ efforts toward NASA certification. These
     products include the following deliverables:

               Alternate Standards – The Contractor will deliver alternate standards proposed to
                satisfy the NASA “meet the intent of” standard requirements.

               Hazard Reports – The Contractor will deliver hazard reports for at least
                catastrophic hazards. The hazard reports will address all phases of the mission to
                the ISS. Hazard reports will include descriptions, effects, risk assessments and
                actions necessary to eliminate or control the hazard.

               Verification and Validation Plan – The Contractor will deliver a Verification and
                Validation Plan. The Plan will identify the verification and validation activities,
                methods, deliverables, and processes that result in objective evidence that all
                elements of the design, production, and operation meet the performance
                requirements and accomplish the intended design reference mission to the ISS
                when operated in the intended environment. The Contractor should deliver any
                proposed variances to meeting NASA’s certification requirements.

               Certification Plan – The Contractor shall deliver a Certification Plan that will
                define an integrated strategy for certification of the complete system and will
                clearly define the order of execution and schedule.

     During CCtCap, scheduled to start in the middle of 2014, NASA plans to enter into one
     or two firm-fixed-price contracts pursuant to which the Agency will endorse the partner’s
     own internal certification in order to grant final certification of a crew transportation
     system or systems. This strategy anticipates the Agency certifying at least one
     operational crew transportation system in time for missions to the ISS by 2017.




     38
          Phase I is CPC and Phase II is CCtCap.


24                                                                              REPORT NO. IG-14-001
RESULTS



                                      Figure 4: Certification Strategy




  Source: Commercial Crew Program Acquisition Strategy.

  Process to Resolve Partner Requests for Alternate Standards and Requirements
  Variances. Given the partner’s varying system designs, the Program has developed a
  process for assessing requests to use alternate standards and to vary from its stated
  requirements with a 90-day goal for NASA to respond to such requests. However, in the
  past, the process has taken as much as 9 months, and according to NASA officials, for
  other Agency programs such as the Ares I, even longer. The Commercial Crew Program
  office has acknowledged that this process can be lengthy and identified it as a significant
  risk to the Program. However, we found that the Program Office is not adequately
  tracking the timeliness of responses to partner requests.

  Requests related to Commercial Crew Program requirements are reviewed by the
  Commercial Crew Program Control Board while requests related to ISS requirements go
  to the Space Station Program Control Board. Requests can go to both boards if an
  integration issue exists.

  Technical or safety requests of either type are first directed to a Technical Review Board
  for consideration and this Board makes recommendations to the full Program Control
  Board. Throughout the process, supporting organizations can provide dissenting
  opinions, which require additional analysis.39 If a particular organization is not satisfied
  with the Program Control Board’s decision, the issue can be elevated to a higher
  authority, including all the way to the NASA Administrator for final determination.


  39
       The supporting organizations include the Commercial Crew Program Systems Engineering and
       Integration Office; Program Control and Integration; Partner Integration; Mission Planning and
       Integration; Spacecraft Systems; Launch Vehicle Systems; Launch and Recovery Systems; Commercial
       Crew Program Chief Engineer; Commercial Crew Program Chief Safety Officer; Engineering; Safety
       and Mission Assurance; Commercial Crew Program Chief Health and Medical Officer; Space and Life
       Sciences; Flight Crew; ISS; Mission Operations – Johnson Space Center; Ground Processing – Kennedy
       Space Center; and the FAA (Advisory Role).


REPORT NO. IG-14-001                                                                                        25
                                                                                                           RESULTS



     Figure 5 depicts the general process used by both Boards.

                       Figure 5: Technical Review and Program Control Boards Process




     Source: Commercial Crew Program process documentation and NPR 7120.5E.

     This process was developed to ensure NASA management considers safety-related
     dissenting opinions when reaching a consensus, and officials said the process may take
     longer when the specific issue involves more risk to the mission. For example, in the
     original iteration of its human rating requirements, the Agency did not require pressure
     suits be tested to ensure they maintain a living environment.40 However, in
     November 2011, NASA personnel questioned this omission, which resulted in the issue

     40
          The pressure suits would include everything needed for survival such as breathing oxygen, pressure
          exerted on the body, and even a heating and cooling system.


26                                                                                        REPORT NO. IG-14-001
RESULTS



  being forwarded to the Technical Review Board and eventually to the full Program
  Control Board for review. During the review, dissenting opinions were elevated to the
  Program Control Board and senior NASA officials were consulted. In July 2012, NASA
  clarified the requirement and required the pressure suits be tested to ensure they maintain
  a living environment. According to Program officials, the 9 months it took to resolve this
  issue is not atypical for resolution of high-risk issues associated with human spaceflight
  programs.

  As of July 2013, NASA has received 86 alternate standards or variances requests from its
  commercial crew partners. Of the requests that have been in the review process for more
  than 90-days, over 65 percent remain unresolved. According to Program personnel, part
  of the delay is attributable to the partners not providing complete information, requiring
  the Program Office to request additional data.

  The Commercial Crew Program Office has acknowledged that the process for addressing
  requests for alternate standards or variances has been lengthy in the past. However,
  Program officials anticipated speeding up the pace of processing and completing the
  majority of the requests by mid-September 2013. Program officials also said that verbal
  feedback on the request is shared with the Partners long before the requests are formally
  closed.

  We acknowledge the recent efforts the Agency has made in more timely processing
  requests for alternate standards or variances. Nonetheless, because the multi-step review
  process historically has been time consuming, and the partners are expected to submit
  additional requests before the certification planning is completed, resolving the current
  and any new requests in a timely manner is critical to Program success. For example,
  many of the program replies to the partner requests involve asking for more information –
  after a 90-120 day period has already passed.

  In our judgment, greater visibility regarding the timeliness of NASA responses during
  program briefings would help prioritize and emphasize the importance of bringing
  resolution to the partner requests for alternate standards and variances within the 90-day
  goal. We found that although the Program Office regularly briefs NASA management on
  the progress of the partner requests, the briefings did not include a summary of the
  timeliness of NASA’s responses, nor did they identify the number of requests over
   90 days.

  We acknowledge the need for the Agency to ensure that safety-related concerns are
  comprehensively considered. However, not resolving alternate standards and variance
  requests in a timely manner could adversely affect the Program. Specifically, partners
  may delay production of their final designs or move forward with requirements that are
  not fully defined. Previous reports by the OIG, GAO, and others have shown that
  requirement changes late in product development can lead to design rework that is both
  costly and time consuming.




REPORT NO. IG-14-001                                                                            27
                                                                                                             RESULTS



Coordination of Spaceflight Safety Issues with Other Federal
  Agencies is Ongoing

     NASA’s foray into securing commercial transportation for its astronauts requires a
     greater level of coordination between the Agency and the FAA than has been the case
     with its previous crewed and uncrewed spaceflight missions. Although the two agencies
     have taken positive steps to coordinate their efforts, complex range safety, legal, and
     insurance issues remain unresolved.

     NASA and FAA Responsibilities for Commercial Spaceflight Activities. For more
     than 50 years, NASA was solely responsible for the safe conduct of its space launches.
     However, because the Government will not own or control the operation of the space
     systems developed by NASA’s commercial crew partners, their launch and reentry are
     deemed commercial activities subject to the jurisdiction of the FAA.41

     The Commercial Space Launch Amendments Act of 2004 temporarily restricts the
     FAA’s authority to regulate the commercial space industry. Specifically, until 2015, the
     FAA’s authority is limited to regulating launches and reentries, and therefore at present
     the FAA does not license commercial spacecraft, requires no airworthiness certificate for
     these companies, and imposes no crew escape requirements during launch. Beginning in
     October 2015, the FAA is authorized to promulgate regulations to ensure crew and
     participant safety.42 Eventually, oversight of the commercial spaceflight industry will
     parallel the way in which the FAA approaches airline safety, although NASA will
     continue to retain responsibility for ensuring the safety of its crews, workforce, and
     infrastructure during commercial launches carrying NASA astronauts.43

     Because of these overlapping authorities, both NASA and the FAA must coordinate their
     efforts to avoid imposing conflicting requirements on commercial spaceflight operators.
     The NASA partner companies we spoke with said they are concerned about the impact
     conflicting requirements could have on their operations. Officials from one company
     said it is important that the FAA publish its regulations as soon as possible to enable each
     company in the market to operate under the safest conditions. They further explained
     that common sense regulation could help prevent an early accident that could result in
     over regulation – which could have a costly and negative effect on the fledgling industry.
     Other partners said they would prefer that the FAA postpone its regulations until both the
     industry and NASA requirements are fully developed because they do not want
     competing, overlapping, or contradictory requirements from NASA and the FAA.

     Coordination Efforts are Progressing. As discussed in our 2011 audit report, NASA
     and the FAA took initial steps to coordinate their efforts by having discussions and co-
     41
          49 U.S. Code § 70101 et seq., Commercial Space Launch Act of 1984.
     42
          51 U.S. Code 509, paragraphs (a)(2) and (a)(5)(C) provided for the regulations to begin 8 years after the
          enactment of the Commercial Space Launch Amendments Act of 2004 (in 2012); this date was extended
          to begin October 1, 2015 by Public Law 112-95, February 14, 2012.
     43
          NASA Policy Directive 8700.1, “NASA Policy for Safety and Mission Success” (October 28, 2008).


28                                                                                          REPORT NO. IG-14-001
RESULTS



  locating personnel at various NASA and FAA offices.44 Since that time, NASA and the
  FAA have taken additional steps to coordinate their efforts. For example, in June 2012
  the two agencies signed a Memorandum of Understanding agreeing to collaborate on
  several efforts, including:

            providing a stable framework for the U.S. space launch industry,

            avoiding conflicting requirements and multiple sets of standards,

            advancing both public safety and crew safety, and

            advancing the interests of NASA-certified U.S. commercial launch operators
             responsible for transporting U.S. and partner astronauts to the ISS.

  NASA and the FAA are working to both achieve consistency between NASA and
  non-NASA flight activities and to avoid conflicts between FAA regulations and the
  Commercial Crew Program requirements. To that end, the agencies have developed a list
  of items requiring coordination, such as the authority to approve changes while in flight,
  including designating emergency landing sites. Although this list is still evolving, as of
  August 2013, the agencies have resolved 24 of 59 issues and are working to settle the
  remaining issues. However, many of the outstanding items are among the more complex
  issues facing the two agencies and, as the Commercial Crew Program has acknowledged,
  will require considerable technical and legal review as well as the agreement of both
  NASA’s Commercial Crew Program Control Board and the FAA Office of Commercial
  Space Transportation. Examples of these complex issues include agreed-upon credentials
  for pilots and crew, financial responsibility for claims, and the claims waiver
  requirements.45 Commercial Crew Program managers noted that NASA, the FAA, and
  the U.S. Air Force – which operates the launch ranges most often used by the commercial
  partners – must develop a process that encourages uniformity among Government
  oversight authorities in the implementation of requirements.

  Mechanism Lacking for Official Resolution of Joint Issues. One hindrance to ongoing
  coordination between NASA and the FAA is the lack of an official mechanism to address
  joint issues and obtain documented resolution. NASA staff has acknowledged that
  documented decision-making is necessary for maintaining internal control of the
  resolution process. However, the process for documenting issue resolution through the
  Commercial Crew Program Control Board and the FAA Office of Commercial Space
  Transportation is time consuming and not firmly established. For example, the FAA
  participates in meetings of the Commercial Crew Program Control Board only as an
  observer/liaison and FAA representatives have indicated they do not view Board
  deliberations as binding to the FAA. Therefore, NASA staff members coordinating
  44
       NASA OIG, “NASA's Challenges Certifying and Acquiring Commercial Crew Transportation Services”
       (IG-11-022, June 30, 2011).
  45
       The FAA and NASA must decide how claims for loss of life, injuries, or property damage will be
       handled, and/or the waivers of claims for missions that are contractor-operated and owned but involve
       NASA missions.


REPORT NO. IG-14-001                                                                                           29
                                                                                           RESULTS



     resolution of requirements issues currently record the decisions from the Commercial
     Crew Program Control Board in addition to documentation of agreement of those
     decisions by the FAA Office of Commercial Space Transportation.

        Figure 6: Multiple Agencies Routinely Involved in Commercial Spaceflight: SpaceX’s
              Falcon 9 with Dragon Capsule Launches from Cape Canaveral Air Force
                     Station En Route to the ISS on a NASA Resupply Mission




     Source: NASA.

     Furthermore, consistent application of safety principles is necessary so that crew safety is
     held to the same standard for Government or commercially-licensed activities. The
     Commercial Crew Program has initiated formation of a tri-party safety steering group
     involving NASA, FAA, and U.S. Air Force staff. The group will be chartered to promote
     consistency and uniformity among the various Government entities with whom
     commercial providers must work to provide commercial crew space transportation. As of
     August 2013, the “Commercial Human Spaceflight Launch and Re-Entry Steering
     Group” (steering group) had developed a draft charter. However, the steering group’s
     authority and reporting structure remains to be established. Apart from the steering
     group’s work, Commercial Crew Program officials have proposed developing a
     Commercial Crew Program/FAA Program Management Plan to document joint processes
     and information exchange for the execution of licensed missions.




30                                                                          REPORT NO. IG-14-001
RESULTS



  Regulatory Issues Remain that Could Impact Mission Schedules. Without a formal
  process to resolve complex coordination issues, it will be difficult for NASA to influence
  the actions of the other Government entities that have a role in commercial crew
  spaceflight. Of greatest concern are issues involving safety, such as whether a change in
  a spacecraft’s reentry trajectory would violate the spacecraft operator’s license. An
  extreme example is a situation in which the weather is deteriorating and the FAA’s
  license for the flight (provided 180 days in advance of the flight) may not allow for a
  landing at a place or time that would provide the crew with the best chance of a safe
  return. In such an event, proper FAA guidance and range responses would be critical to
  ensuring crew safety. Although air traffic controllers make these types of decisions
  routinely for changes in airline flights, a similar procedure does not currently exist for
  commercial space launches.

  Other unresolved coordination matters involve legal and liability issues. These include:

         FAA licenses cover launch and reentry, but the definition of the “end of launch”
          and “beginning of reentry” for Commercial Crew Program missions remains to be
          resolved. For instance, end of launch could be considered when rocket stages
          separate, or in the case of expendable launch vehicles, the “last exercise of
          control” over the launch vehicle, which historically occurs with the venting of the
          tanks and discharging of batteries. A failure to define each term could result in
          confusion over which agency has control or decision making authority during
          flight.

         A question exists regarding the legality of NASA astronauts operating
          commercial vehicles given the statutory definition of “crew” as employees of the
          licensee.

         Current FAA regulations parallel U.S. Air Force range requirements. For
          past-crewed missions, NASA negotiated with the range for implementation of
          contingencies that specifically addressed the safety of crews, including procedures
          for emergency egress and landing. For FAA-licensed launches, NASA has no
          authority or official avenue to influence range safety policy or implementation.

Conclusion

  NASA continues to make progress in commercial spaceflight development, as recently
  demonstrated by SpaceX’s successful cargo resupply missions to the ISS and Orbital’s
  maiden test flight of its cargo delivery rocket. However, the ability of commercial
  partners to successfully develop safe, reliable, and cost effective space transportation for
  human transportation to the ISS is far more complex and unproven.




REPORT NO. IG-14-001                                                                             31
                                                                                          RESULTS



     Reduced budgets for NASA’s Commercial Crew Program have forced the Agency to
     delay completion of the Program’s development phase until 2017, and if this funding
     trend continues the risk of delay beyond 2017 increases significantly. As such, it is
     crucial that the Agency make a concerted effort to develop comprehensive and timely
     cost estimates for its Commercial Crew Program.

     NASA’s publication of commercial crew requirements and certification documents was a
     major step forward in the evolution of the Program, but the path to certifying a
     commercial partner’s spaceflight system remains uncertain. Given that each partner has a
     varied business and technical approach to development, it is important that NASA utilize
     a process that both ensures safety-related concerns are sufficiently examined and that
     deviations, exceptions, and waivers are processed in a timely manner. Failure by NASA
     to confirm design requirements and provide timely certification guidance regarding
     deviations, exceptions, and waivers could impact contractors’ ability to move forward
     with production of their spaceflight systems.

     Finally, NASA’s ability to obtain adequate funding from Congress and coordinate
     effectively with the FAA and Air Force to manage the commercial spaceflight industry
     are key factors underpinning the success of the Agency’s crewed commercial spaceflight
     efforts. Failure to secure these capabilities will require NASA to negotiate for additional
     seats on the Soyuz, which by 2017 will cost over $70 million each. Moreover, given that
     the operational status of the ISS beyond 2020 is yet to be determined, delays beyond
     2017 may call into question the viability of the Program.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response

     Recommendation 1. We recommended that NASA, to the extent practical, revise
     guidance to ensure that managers of space system programs developed using Space Act
     Agreements provide detailed cost estimates for each year of the program based upon a
     complete analysis of the program over time before preliminary designs are completed in
     order to increase the accuracy and transparency of Agency budget submissions.

        Management’s Response. NASA concurred with our recommendation, noting that it
        will review existing policies and guidelines to determine the appropriate mechanism
        for satisfying the intent of this recommendation. NASA stated that while it will be
        extremely challenging to prepare detailed cost estimates for each year based upon a
        complete analysis before preliminary designs are completed, the Agency will
        endeavor to increase the accuracy and transparency of Agency budget submissions
        for future use of funded Space Act Agreements. NASA expects to complete any
        required updates to its existing policies and guidelines by mid-calendar year 2014.

        Evaluation of Management’s Response. We consider NASA’s proposed corrective
        actions responsive; therefore, the recommendation is resolved and will be closed upon
        completion and verification of the corrective actions.



32                                                                          REPORT NO. IG-14-001
RESULTS



  Recommendation 2. We recommended that the Associate Administrator for the Human
  Exploration and Operations Mission Directorate examine whether more comprehensive
  costs estimates should be developed by the Commercial Crew Program before
  completion of the Critical Design Review.

      Management’s Response. The Associate Administrator concurred with our
      recommendation, noting that the Program currently employs a series of reviews
      involving both internal and external checks that continually examine the Commercial
      Crew Program’s status and that these reviews can identify cost risks or other
      indicators that may suggest the need for more comprehensive cost estimates. The
      Associate Administrator stated that NASA will take additional actions to address our
      recommendation, including collaborating with the ISS Program to examine service
      costs and updating the Independent Government Cost Estimates for both the FY
      2016-2020 budget cycle and after the CCtCap award. The Associate Administrator
      stated that all additional actions are expected to be completed by the end of calendar
      year 2014.

      Evaluation of Management’s Response. We consider the Associate
      Administrator’s proposed corrective actions responsive; therefore, the
      recommendation is resolved and will be closed upon completion and verification of
      the corrective actions.

  Recommendation 3. We recommended that the Associate Administrator for the Human
  Exploration and Operations Mission Directorate routinely track adherence to the 90-day
  goal for responding to contractor requests for alternate requirement standards and
  variances and explore ways to facilitate the process in order to avoid delays or additional
  costs in development efforts.

      Management’s Response. The Associate Administrator concurred with our
      recommendation, stating that while the Program did not meet the 90-day goal for
      some of the Round 1 dispositions, in many cases this was to allow extra time for the
      partners to re-deliver products or provide additional supplementary information.
      Furthermore, according to the Associate Administrator, the Program was successful
      in dispositioning all deliverables by the end of September. To address our
      recommendation, the Associate Administrator stated that the Program completed a
      workshop in September 2013 to evaluate the lessons learned from Round 1 of the
      CPC Contract and to develop improvements to increase timeliness for Round 2. He
      also stated that NASA will begin tracking disposition timeliness against the 90-day
      goal and consider deferring the next round of reports to allow time for the the Agency
      to focus on key requests that may influence the partners’ designs. The Associate
      Administrator anticipates completing these actions by the end of calendar year 2013.

      Evaluation of Management’s Response. We consider the Associate
      Administrator’s proposed corrective actions responsive; therefore, the
      recommendation is resolved and will be closed upon completion and verification of
      the corrective actions.


REPORT NO. IG-14-001                                                                            33
                                                                                        RESULTS




     Recommendation 4. We recommended that the Associate Administrator for the Human
     Exploration and Operations Mission Directorate, in conjunction with the FAA and the
     U.S. Air Force, formally establish a tri-agency Safety Steering Group for resolution of
     issues involving crew and public safety during commercial spaceflight operations in
     order to ensure that the Agency expeditiously meets all spaceflight safety issues.

        Management’s Response. The Associate Administrator concurred with our
        recommendation, noting that while NASA and the FAA have ongoing and
        comprehensive interactions regarding safety requirements and regulations, expanding
        this collaboration to include the Air Force in a more formal setting would be
        beneficial. The Associate Administrator stated that NASA has recently taken action
        to address our recommendation including obtaining approval from the Program
        Control Board to develop a Safety Steering Group that includes FAA and Air Force
        leadership, developing a draft charter for the Steering Group, and holding preliminary
        meetings between NASA, the FAA, and the Air Force’s 45th Space Wing. The
        Associate Administrator also stated that additional meetings with the 45th Space Wing
        are scheduled for January 2014.

        Evaluation of Management’s Response. We consider the Associate
        Administrator’s proposed corrective actions responsive; therefore, the
        recommendation is resolved and will be closed upon completion and verification of
        the corrective actions.




34                                                                        REPORT NO. IG-14-001
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from August 2012 through September 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives. This audit focused on the Commercial Crew Program managed by
  NASA’s Commercial Spaceflight Development Office within the Human Exploration
  and Operations Mission Directorate.

  To determine the Agency’s management of the Commercial Crew Program, progress
  made, and challenges hindering the successful implementation of the Program, we
  reviewed laws, regulations, and policies in order to determine compliance with required
  guidance and best practices. We obtained and reviewed prior reports and studies related
  to NASA’s ability to address the development and collaboration challenges of the
  Commercial Crew Program. We interviewed key personnel within NASA’s Commercial
  Spaceflight Development Office and the Commercial Crew Program located at NASA
  Headquarters, Kennedy Space Center, Johnson Space Center, and commercial partners at
  corporate sites or by telephone.

  To determine whether the Commercial Crew Program is on track to provide a system
  capable of reaching the ISS in 2017, we analyzed the Program’s documents, including
  budget documents, schedule timelines, and performance requirements as designed by
  NASA and presented to the development partners. We compared planned budgeting
  levels to actual budgeting levels and reviewed NASA’s contingency planning for lower
  funding levels. We reviewed NASA’s contingency plans to manage transportation to and
  from the ISS beyond 2016 in the case of major programmatic delays.

  In order to assess the process used to communicate human rating requirements to the
  commercial partners, we reviewed human rated certification plans to assess how insight
  and oversight is to be implemented, and interviewed key NASA and commercial partner
  personnel. We also interviewed NASA Partner Integration Teams and observed their
  interactions with the commercial partners, and reviewed the requirements baseline to
  determine the variability of requirements modifications. Furthermore, we tracked and
  analyzed the timeliness of NASA’s responses to the companies’ requests for variances
  and alternate standards. By doing this, we were able to determine exactly how long it
  took NASA to provide a disposition on each of the requests, and therefore provide
  observations based upon the 90-day goal in the CPC contract, and from information
  provided by the companies.



REPORT NO. IG-14-001                                                                          35
                                                                                                  APPENDIX A



     Finally, to determine whether NASA is effectively coordinating with the FAA and other
     Government agencies to resolve spaceflight issues, we interviewed NASA personnel
     responsible for this coordination, applicable regulations and U.S. laws, as well as FAA
     personnel associated with certification and licensing of commercial spaceflight
     operations.

     Use of Computer-Processed Data. We used computer-processed data to perform this
     audit. We collected computer-processed cost data related to the Commercial Crew
     Program in the form of milestone payment data from the beginning of the Program
     through the end of August 2013. Program officials downloaded the data from NASA’s
     financial management program (Business Warehouse) and provided the data in Microsoft
     Excel. For our audit objectives, we compared this data to information provided in the
     President's budget estimates. We also queried the financial management program
     ourselves in order to validate the information received from the Program office.
     Therefore, we assess that the cost data we received is sufficiently reliable, but we did not
     rely solely on the computer-processed data to support our findings, conclusions, or
     recommendations.

Review of Internal Controls

     We reviewed NASA policies and procedures to determine NASA’s internal control
     requirements for managing the Commercial Crew Program. We found that while the
     Commercial Crew Program exhibited several good internal control practices, NASA
     officials should not have exempted this Program from adhering to required policies such
     as annual statements of assurance, periodic reviews by NASA’s Independent Program
     Assessment Office, or formal assessments of their acquisition procedures as required by
     the Office of Management and Budget (OMB). We acknowledge that using Space Act
     Agreements requires some adjustment in procedures, but new programs and new
     approaches to development generally require more oversight, not less. Complying with
     basic OMB and GAO guidance helps managers provide reasonable assurance that
     government resources are safeguarded and errors or fraud are avoided. Although
     program officials understood the basic concept of internal control, the programs were not
     required by the Human Exploration and Operations Mission Directorate to perform
     internal control assessments. During the course of this audit, corrections were made and
     the Commercial Crew Program plans to submit a FY 2013 statement of assurance
     concerning their internal control program. In addition, although the Commercial Crew
     Program has spent a total of over $1 billion in government funding, the OMB-directed
     acquisition assessment for projects over $250 million has yet to be conducted. Finally,
     even though commercial spaceflight development commenced 7 years ago, neither the
     Cargo nor the Crew programs have been reviewed by NASA’s Independent Program
     Assessment Office.46 During the course of this audit, the Independent Program
     Assessment Office began designing a review of the Commercial Crew Program.
     46
          On April 26, 2007, NASA’s Program Management Council decided not to conduct an Independent
          Program Assessment Office review of the Commercial Cargo Program because of the uniqueness of the
          Program. The Cargo Program, now consisting of the Commercial Orbital Transportation Services and
          Commercial Resupply Services, has spent a total of over $1.7 billion in NASA funding.


36                                                                                   REPORT NO. IG-14-001
APPENDIX A



Prior Coverage

  During the last 5 years, the NASA OIG and the GAO have issued 11 reports of particular
  relevance to the subject of this report. Unrestricted reports can be accessed over the
  Internet at http://oig.nasa.gov/audits/reports/FY13/index.html (NASA OIG) and
  http://www.gao.gov (GAO).

  NASA Office of Inspector General

  “Commercial Cargo: NASA’s Management of Commercial Orbital Transportation
  Services and ISS Commercial Resupply Contracts” (IG-13-016, June 13, 2013)

  “NASA’s Challenges to Meeting Cost, Schedule, and Performance Goals” (IG-12-021,
  September 27, 2012)

  “NASA's Challenges Certifying and Acquiring Commercial Crew Transportation
  Services” (IG-11-022, June 30, 2011)

  “Review of NASA’s Acquisition of Commercial Launch Services” (IG-11-12,
  February 17, 2011)

  Government Accountability Office

  “Commercial Space Launches: FAA Should Update How It Assesses Federal Liability
  Risk” (GAO-12-899, July 30, 2012)

  “Commercial Space Transportation: Industry Trends, Government Challenges, and
  International Competitiveness Issues” (GAO-12-836T, June 20, 2012)

  “NASA: Significant Challenges Remain for Access, Use, and Sustainment of the
  International Space Station” (GAO-12-587T, March 28, 2012)

  “NASA: Assessment of Selected Large Scale Projects” (GAO-12-207SP, March 1, 2012)

  “National Aeronautics and Space Administration: Acquisition Approach for Commercial
  Crew Transportation Includes Good Practices, but Faces Significant Challenges”
  (GAO-12-282, December 15, 2011)

  “Key Controls NASA Employs to Guide Use and Management of Funded Space Act
  Agreements are Generally Sufficient, but Some Could Be Strengthened and Clarified”
  (GAO-12-230R, November 17, 2011)

  “NASA: Commercial Partners Are Making Progress, but Face Aggressive Schedules to
  Demonstrate Critical Space Station Cargo Transport Capabilities” (GAO-09-618,
  June 16, 2009)




REPORT NO. IG-14-001                                                                       37
                                                                                                   APPENDIX B




                                                         COMMERCIAL PARTNER TABLES

                                     Table 4: List of CPC Recipients

                                          Total Funds
                               Total
       Company      System                Used (as of       Profile         Capability          Location
                               Funds
                                          August 31,
                              Available
                                             2013)
                                                                           7 astronauts or
                                                            Piloted
     Sierra         Dream       $10                                       equivalent crew
                                           $4 million    lifting-body                         Louisville, CO
     Nevada Corp    Chaser     million                                   and cargo; runway
                                                          spacecraft
                                                                               landing
                                                            Crew           7 astronauts or
     The Boeing                 $9.9                      module and      equivalent crew
                    CST-100                $4 million                                          Houston, TX
     Company                   million                     service         and cargo; dry
                                                           module         surface landing
     Space
                                                          Free-flying,   7 astronauts; dry
     Exploration                $9.6
                    Dragon                $3.8 million      reusable     surface or ocean     Hawthorne, CA
     Technologies              million
                                                           spacecraft         landing
     (SpaceX)
     Source: NASA OIG summary of Commercial Crew Program data.




38                                                                                       REPORT NO. IG-14-001
APPENDIX B



                                    Table 5: List of CCiCap Recipients

                                                                                             Milestones
                                                  Total
                                  Total                                                      Completed
                                                  Funds
      Company        System       Funds                         Profile      Capability        (as of     Location
                                                Used (as of
                                            a                                                August 31,
                                Available       August 31,
                                                                                               2013)
                                                  2013)
                                                                             7 astronauts
                                                                                   or
                                                                Crew          equivalent
                                   $480           $280.9                                                  Houston,
      The Boeing     CST-100                                  module and       crew and       8 of 20
                                  million         million                                                   TX
      Company                                                  service        cargo; dry
                                                               module           surface
                                                                                landing
      Space
                                                                             7 astronauts;
      Exploration                                             Free-flying,
                                   $460            $249                      dry surface                  Hawthorne,
      Technologies   Dragon                                     reusable                       7 of 16
                                  million         million                      or ocean                      CA
      Corporation                                              spacecraft
                                                                               landing
      (SpaceX)
                                                                             7 astronauts
                                                                                   or
                                                                              equivalent
      Sierra         Dream        $227.5          $107.5         Piloted                                  Louisville,
                                                                               crew and       4 of 12
      Nevada         Chaser       million         million     lifting-body                                   CO
                                                                                 cargo;
      Corporation                                              spacecraft
                                                                                runway
                                                                                landing
  a
      Total Funds Available includes optional milestones added in August 2013.

  Source: NASA OIG summary of Commercial Crew Program data.




REPORT NO. IG-14-001                                                                                                    39
                                                                                                                APPENDIX B



                                           Table 6: List of CCDev2 Recipients

                                                                                                 Milestones
                                                Total Funds
                                   Total                                                         Completed
      Company        System                     Used (as of       Profile       Capability                       Location
                                   Funds                                                         (as of June
                                                 June 30,
                                  Available                                                       30, 2013)
                                                   2013)
                                                                               7 astronauts
                                                                  Crew         or equivalent
                                                  $112.9
                                   $112.9                       module and       crew and                        Houston,
     The Boeing     CST-100                       million                                         16 of 16
                                   million                       service        cargo; dry                         TX
     Company                                      (100%)
                                                                 module           surface
                                                                                  landing
                                                                               7 astronauts
                                                                               or equivalent
     Sierra                                       $97.6            Piloted
                     Dream         $105.6                                        crew and                       Louisville,
     Nevada                                       million       lifting-body                      14 of 15
                     Chaser        million                                         cargo;                          CO
     Corp                                         (92%)          spacecraft
                                                                                  runway
                                                                                  landing
     Space
                                                                Free-flying,   7 astronauts;
     Exploration                                $75 million                                                     Hawthorne,
                     Dragon      $75 million                      reusable     dry surface or     11 of 11
     Technologies                                 (100%)                                                           CA
                                                                 spacecraft    ocean landing
     (SpaceX)
                                                                 Biconical
                                                                spacecraft;
                                                                  Atlas V
                                                                  rocket
                     Space                      $22 million                                                 a
     Blue                        $22 million                     initially,     4 astronauts     11 of 11       Kent, WA
                     Vehicle                      (100%)
     Origin                                                        then
                                                                 reusable
                                                                  booster
                                                                   stage

                                                            Unfunded
                                                                   Solid
                                                                  rocket
     Alliant                                                     boosters,     44,500 lbs lift
                                                                                                                Promontory,
     Techsystems     Liberty         n/a            n/a          Ariane 5       to low Earth       5 of 5
                                                                                                                    UT
     Inc.                                                       core stage,         orbit
                                                                Vulcain 2
                                                                  engine
                                                                   Human
                                                                 spacecraft,
                                                                including a
                                                                  capsule,
                                                                               3 astronauts
                     Human                                         launch                                        Houston,
     Excalibur                       n/a            n/a                        or equivalent       5 of 5
                    Spacecraft                                      abort                                          TX
     Almaz                                                                         cargo
                                                                system, and
                                                                expendable
                                                                   service
                                                                  module




40                                                                                               REPORT NO. IG-14-001
APPENDIX B



                                                          Atlas core
                                                                         860,000 lbs
                                                            stage,
                                                                        of thrust from
                                                           Centaur
                                                                         core stage at
      United                                                upper
                                                                        liftoff; ability            Centennial,
      Launch        Atlas V       n/a          n/a        stage, and                       5 of 5
                                                                           to launch                   CO
      Alliance                                            option for
                                                                           different
                                                          up to five
                                                                             crew
                                                         solid rocket
                                                                          spacecraft
                                                           boosters

  a
      Three additional unfunded milestones were added in February 2013.

  Source: NASA OIG summary of Commercial Crew Program data.




REPORT NO. IG-14-001                                                                                              41
                                                                                                              APPENDIX B



                                        Table 7: List of CCDev1 Recipients
                                                                                             Milestones
                                    Total                                                    Completed
      Company         System                      Profile              Capability                            Location
                                    Funds                                                    (as of June
                                    Spent                                                     30, 2013)

                                                                      7 astronauts or
     Sierra           Dream          $20      Piloted lifting-
                                                                   equivalent crew and         4 of 4      Louisville, CO
     Nevada           Chaser        million   body spacecraft
                                                                  cargo; runway landing
     Corp
                                                                      7 astronauts or
                                               Crew module
                                     $18                           equivalent crew and
     The Boeing      CST-100                    and service                                   36 of 36      Houston, TX
                                    million                         cargo; dry surface
     Company                                      module
                                                                          landing
                                                  Atlas core
                                                                    860,000 pounds of
                                               stage, Centaur
     United                                                       thrust from core stage
                                     $6.7     upper stage, and
     Launch           Atlas V                                       at liftoff; ability to     4 of 4      Centennial, CO
                                    million   option for up to
     Alliance                                                     launch different crew
                                              five solid rocket
                                                                         spacecraft
                                                   boosters
                                                  Biconical
                                                 spacecraft;
                     Space           $3.7      Atlas V rocket
                                                                       4 astronauts            7 of 7        Kent, WA
     Blue Origin     Vehicle        million     initially, then
                                              reusable booster
                                                     stage
                   Commercial
                      Crew
     Paragon
                    Transport-                                        Modular and
     Space                          $1.44
                        Air                         n/a            reconfigurable life         5 of 5       Tucson, AZ
     Development                    million
                   Revitalization                                    support system
     Corporation
                     System
                   (CCT-ARS)
 Source: NASA OIG summary of Commercial Crew Program data.




42                                                                                                REPORT NO. IG-14-001
APPENDIX C




                                                 COMPARISON OF ORIGINAL AND
                                                        REVISED ACQUISITION
                                                         STRATEGIES FOR THE
                                                  COMMERCIAL CREW PROGRAM

                    Figure 7: Comparison of Original and Revised Acquisition
                                Strategies for the Crew Program




  Source: NASA OIG analysis of Program-supplied data.




REPORT NO. IG-14-001                                                           43
                       APPENDIX D




     MANAGEMENT COMMENTS




44            REPORT NO. IG-14-001
APPENDIX D




REPORT NO. IG-14-001   45
              APPENDIX D




46   REPORT NO. IG-14-001
APPENDIX E
   REPORT




                                                     REPORT DISTRIBUTION


National Aeronautics and Space Administration

  Administrator
  Acting Deputy Administrator
  Chief of Staff
  Associate Administrator for Human Exploration and Operations
  Director, Commercial Spaceflight Development
  Director, International Space Station Program
  NASA Advisory Council’s Audit, Finance, and Analysis Committee
  Director, Johnson Space Center
  Director, Kennedy Space Center
  Manager, Commercial Crew Program

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Operations
  House Committee on Science, Space, and Technology
     Subcommittee on Oversight
     Subcommittee on Space




REPORT NO. IG-14-001                                                       47
Major Contributors to the Report:
   Ridge Bowman, Director, Space Operations Directorate
   Kevin Fagedes, Project Manager
   Letisha Antone, Auditor
   Janice Smith, Auditor
   Michael Palinkas, Management Analyst
   Troy Zigler, Management Analyst
   Cedric Campbell, Associate Counsel to the Inspector General – Central Region




REPORT NO. IG-14-001                                                              49
                                                                                  NOVEMBER 13, 2013
                                                                AUDIT REPORT No. IG-14-001




                                                                                  OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
